Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401

Richard W. Moore
Inspector General



                                                         December 12, 2007



The Honorable Robert M. Duncan
Tennessee Valley Authority Board of Directors
Republican National Committee
310 First Street, SE
Washington, DC 20003

Dear Mr. Duncan:

AUDIT 2007-11133 – REVIEW OF PRICEWATERHOUSECOOPERS’ AUDIT OF THE
TENNESSEE VALLEY AUTHORITY FISCAL YEAR 2007 FINANCIAL STATEMENTS



The Tennessee Valley Authority (TVA) contracted with the independent certified public accounting
firm of PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to audit the balance sheets as of
September 30, 2007 and 2006, and the related statements of income, changes in proprietary
capital, and cash flows for each of the three years in the period ended September 30, 2007. The
contract required the audit be done in accordance with generally accepted government auditing
standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking appropriate
steps to assure that any work performed by nonfederal auditors, including PricewaterhouseCoopers,
complies with generally accepted government auditing standards. The Chief Financial Officers Act
also places responsibilities on the IG regarding TVA’s annual financial statement audit. In keeping
with these statutory responsibilities, the TVA Office of Inspector General reviewed
PricewaterhouseCoopers’ reports and related audit documentation, interviewed their representatives,
and performed such other procedures as we deemed appropriate in the circumstances to provide
reasonable assurance the audit was performed in accordance with generally accepted government
auditing standards.

The objective of our review was not intended to enable us to express, and we do not express, an
opinion on the TVA’s financial statements or on management’s conclusions about the effectiveness
of its system of internal control. PricewaterhouseCoopers is responsible for the auditor’s reports
dated December 10, 2007, and the conclusions expressed in the reports. However, our review
disclosed no instances where PricewaterhouseCoopers did not comply, in all material respects, with
generally accepted government auditing standards. Our review was performed in accordance with
generally accepted government auditing standards.

                                                         Very truly yours,




                                                    (for) Richard W. Moore
RLT:SDB
cc: See page 2
The Honorable Robert M. Duncan
Page 2
December 12, 2007



cc: The Honorable Donald R. DePriest
    Tennessee Valley Authority Board of Directors
    206 8th Street, North
    Columbus, Mississippi 39701

    Mr. Michael A. Herman
    PricewaterhouseCoopers LLP
    One North Wacker, 14th Floor
    Chicago, Illinois 60606

    The Honorable Susan Richardson Williams
    Tennessee Valley Authority Board of Directors
    SRW & Associates
    137 S. Gay Street
    Knoxville, Tennessee 37902

    Kimberly S. Greene, WT 7B-K
    Peyton T. Hairston, Jr., WT 7B-K
    John M. Hoskins, WT 7B-K
    Tom D. Kilgore, WT 7B-K
    Randall P. Trusley, WT 4B-K
    OIG File No. 2007-11133
Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401

Richard W. Moore
Inspector General




                                                         December 12, 2007



The Honorable Donald R. DePriest
Tennessee Valley Authority Board of Directors
206 8th Street, North
Columbus, Mississippi 39701

Dear Mr. DePriest:

AUDIT 2007-11133 – REVIEW OF PRICEWATERHOUSECOOPERS’ AUDIT OF THE
TENNESSEE VALLEY AUTHORITY FISCAL YEAR 2007 FINANCIAL STATEMENTS



The Tennessee Valley Authority (TVA) contracted with the independent certified public accounting
firm of PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to audit the balance sheets as of
September 30, 2007 and 2006, and the related statements of income, changes in proprietary
capital, and cash flows for each of the three years in the period ended September 30, 2007. The
contract required the audit be done in accordance with generally accepted government auditing
standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking appropriate steps
to assure that any work performed by nonfederal auditors, including PricewaterhouseCoopers,
complies with generally accepted government auditing standards. The Chief Financial Officers Act
also places responsibilities on the IG regarding TVA’s annual financial statement audit. In keeping
with these statutory responsibilities, the TVA Office of Inspector General reviewed
PricewaterhouseCoopers’ reports and related audit documentation, interviewed their representatives,
and performed such other procedures as we deemed appropriate in the circumstances to provide
reasonable assurance the audit was performed in accordance with generally accepted government
auditing standards.

The objective of our review was not intended to enable us to express, and we do not express, an
opinion on the TVA’s financial statements or on management’s conclusions about the effectiveness
of its system of internal control. PricewaterhouseCoopers is responsible for the auditor’s reports
dated December 10, 2007, and the conclusions expressed in the reports. However, our review
disclosed no instances where PricewaterhouseCoopers did not comply, in all material respects, with
generally accepted government auditing standards. Our review was performed in accordance with
generally accepted government auditing standards.

                                                         Very truly yours,




                                                    (for) Richard W. Moore
RLT:SDB
cc: See page 2
The Honorable Donald R. DePriest
Page 2
December 12, 2007



cc: The Honorable Robert M. Duncan
    Tennessee Valley Authority Board of Directors
    Republican National Committee
    310 First Street, SE
    Washington, DC 20003

    Mr. Michael A. Herman
    PricewaterhouseCoopers LLP
    One North Wacker, 14th Floor
    Chicago, Illinois 60606

    The Honorable Susan Richardson Williams
    Tennessee Valley Authority Board of Directors
    SRW & Associates
    137 S. Gay Street
    Knoxville, Tennessee 37902

    Kimberly S. Greene, WT 7B-K
    Peyton T. Hairston, Jr., WT 7B-K
    John M. Hoskins, WT 7B-K
    Tom D. Kilgore, WT 7B-K
    Randall P. Trusley, WT 4B-K
    OIG File No. 2007-11133
Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401

Richard W. Moore
Inspector General



                                                         December 12, 2007



The Honorable Susan Richardson Williams
Tennessee Valley Authority Board of Directors
SRW & Associates
137 S. Gay Street
Knoxville, Tennessee 37902

Dear Ms. Williams:

AUDIT 2007-11133 – REVIEW OF PRICEWATERHOUSECOOPERS’ AUDIT OF THE
TENNESSEE VALLEY AUTHORITY FISCAL YEAR 2007 FINANCIAL STATEMENTS



The Tennessee Valley Authority (TVA) contracted with the independent certified public accounting
firm of PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to audit the balance sheets as of
September 30, 2007 and 2006, and the related statements of income, changes in proprietary
capital, and cash flows for each of the three years in the period ended September 30, 2007. The
contract required the audit be done in accordance with generally accepted government auditing
standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking appropriate steps
to assure that any work performed by nonfederal auditors, including PricewaterhouseCoopers,
complies with generally accepted government auditing standards. The Chief Financial Officers Act
also places responsibilities on the IG regarding TVA’s annual financial statement audit. In keeping
with these statutory responsibilities, the TVA Office of Inspector General reviewed
PricewaterhouseCoopers’ reports and related audit documentation, interviewed their representatives,
and performed such other procedures as we deemed appropriate in the circumstances to provide
reasonable assurance the audit was performed in accordance with generally accepted government
auditing standards.

The objective of our review was not intended to enable us to express, and we do not express, an
opinion on the TVA’s financial statements or on management’s conclusions about the effectiveness
of its system of internal control. PricewaterhouseCoopers is responsible for the auditor’s reports
dated December 10, 2007, and the conclusions expressed in the reports. However, our review
disclosed no instances where PricewaterhouseCoopers did not comply, in all material respects, with
generally accepted government auditing standards. Our review was performed in accordance with
generally accepted government auditing standards.

                                                         Very truly yours,




                                                   (for) Richard W. Moore
RLT:SDB
cc: See page 2
The Honorable Susan Richardson Williams
Page 2
December 12, 2007



cc: The Honorable Donald R. DePriest
    Tennessee Valley Authority Board of Directors
    206 8th Street, North
    Columbus, Mississippi 39701

    The Honorable Robert M. Duncan
    Tennessee Valley Authority Board of Directors
    Republican National Committee
    310 First Street, SE
    Washington, DC 20003

    Mr. Michael A. Herman
    PricewaterhouseCoopers LLP
    One North Wacker, 14th Floor
    Chicago, Illinois 60606

    Kimberly S. Greene, WT 7B-K
    Peyton T. Hairston, Jr., WT 7B-K
    John M. Hoskins, WT 7B-K
    Tom D. Kilgore, WT 7B-K
    Randall P. Trusley, WT 4B-K
    OIG File No. 2007-11133
